       AUDIT OF THE OFFICE OF COMMUNITY
          ORIENTED POLICING SERVICES
HIRING RECOVERY PROGRAM GRANT ADMINISTERED
       BY THE LOWELL POLICE DEPARTMENT
            LOWELL, MASSACHUSETTS


          u.s.  Department of Justice
         Office of the Inspector General
                  Audit Division

          Audit Report GR-70-12-008 

               September 2012 

         AUDIT OF THE OFFICE OF COMMUNITY 

            ORIENTED POLICING SERVICES 

   HIRING RECOVERY PROGRAM GRANT ADMINISTERED 

         BY THE LOWELL POLICE DEPARTMENT 

              LOWELL, MASSACHUSETTS


                        EXECUTIVE SUMMARY


       The Department of Justice Office of the Inspector General, Audit
Division, has completed an audit of the Office of Community Oriented
Policing Services (COPS) Hiring Recovery Program (CHRP) grant,
2009-RK-WX-0400, awarded to the Lowell Police Department (Lowell),
Lowell, Massachusetts. This grant provided $2,084,736 in funding to Lowell
to avoid the pending layoff of 12 sworn officers.

      The objective of our audit was to determine whether costs claimed
under the grant were allowable, supported, and in accordance with
applicable laws, regulations, guidelines, and the terms and conditions of the
grant. We also assessed Lowell’s program performance in meeting grant
objectives and overall accomplishments.

       We found inaccuracies in the information Lowell submitted to COPS in
its grant application. To select CHRP grantees, COPS developed a
methodology that scored and ranked each applicant based on key data
submitted by the applicant. While COPS performed some limited data
validity checks, COPS relied heavily on the accuracy of the data submitted
by grant applicants. As a result, we reviewed the application statistics
Lowell submitted and found inaccuracies in the amounts for locally
generated revenue for fiscal years (FY) 2007 and 2008, the general fund
balance for FY 2009, and the local area unemployment statistics for FYs
2008 and 2009. We also assessed the effect of Lowell’s inaccurate
application data and determined that it did not appear to have affected the
suitability of the award. However, to ensure future awards are not affected
by inaccurate data, we recommend that Lowell enhance its procedures to
ensure it submits accurate data for future award applications.

       We also determined that Lowell generally complied with all other
essential grant requirements in the areas we tested. However, we found
that Lowell overcharged the grant $19,094 in fringe benefit expenditures.
Because Lowell corrected this overcharge during our audit, we do not
question these charges. However, we recommend that Lowell enhance its
procedures for ensuring that all costs charged to the grant are allowable and
fully supported.


                                     -i-
     These items are discussed in further detail in the Findings and
Recommendations section of the report. Our audit objectives, scope, and
methodology appear in Appendix I.  

      We discussed the results of our audit with Lowell officials and have
included their comments in the report, as applicable. In addition, we
requested a response to our draft report from Lowell and COPS, and their
responses are appended to this report as Appendix II and III, respectively.
Our analysis of both responses, as well as a summary of actions necessary
to close the recommendations can be found in Appendix IV of this report.




                                     -ii-
                                TABLE OF CONTENTS


INTRODUCTION .......................................................................1 

The Office of Community Oriented Policing Services .........................1 

American Recovery and Reinvestment Act ......................................1 

COPS Hiring Recovery Program .....................................................2 

The City of Lowell, Massachusetts..................................................2 

OIG Audit Approach.....................................................................2 

 
FINDINGS AND RECOMMENDATIONS........................................4

Application Statistics ...................................................................4 

Internal Control Environment .......................................................5

Personnel and Fringe Benefit Expenditures......................................6 

Drawdowns ............................................................................... .7

Budget Management and Control...................................................8

Reporting.................................................................................. 9

Compliance with Award Special Conditions ................................... 10

Program Performance and Accomplishments ................................ .10 

Conclusion ............................................................................... 12 

Recommendations..................................................................... 12 


APPENDIX I - OBJECTIVES, SCOPE, AND METHODOLOGY........ 13 

 
APPENDIX II - LOWELL POLICE DEPARTMENT RESPONSE 

   TO THE DRAFT AUDIT REPORT ......................................... 15 


APPENDIX III - OFFICE OF COMMUNITY ORIENTED POLICING 

   SERVICES RESPONSE TO THE DRAFT AUDIT REPORT........ 16 


APPENDIX IV - OFFICE OF THE INSPECTOR GENERAL
   ANALYSIS AND SUMMARY OF ACTIONS NECESSARY
   TO CLOSE THE REPORT..................................................... 19 





                                                   
 
                            INTRODUCTION

       The Department of Justice Office of the Inspector General, Audit
Division, has completed an audit of the Office of Community Oriented
Policing Services (COPS) Hiring Recovery Program (CHRP) grant,
2009-RK-WX-0400, awarded to the Lowell Police Department (Lowell),
Lowell, Massachusetts. This grant, in the amount of $2,084,736, was to be
used to avoid the pending layoffs of 12 officer positions.

      The objective of our audit was to determine whether costs claimed
under the grant were allowable, reasonable, and in accordance with
applicable laws, regulations, guidelines, and the terms and conditions of the
grant. We also assessed Lowell’s program performance in meeting grant
objectives and overall accomplishments.

The Office of Community Oriented Policing Services

       The Office of Community Oriented Policing Services (COPS), within the
Department of Justice, assists law enforcement agencies in enhancing public
safety through the implementation of community policing strategies in
jurisdictions of all sizes across the country. The COPS office provides
funding to state, local, and tribal law enforcement agencies and other public
and private entities to hire and train community policing professionals,
acquire and deploy cutting-edge crime-fighting technologies, and develop
and test innovative policing strategies.

American Recovery and Reinvestment Act

      On February 17, 2009, the President signed into law the American
Recovery and Reinvestment Act of 2009 (Recovery Act). The purposes of
the Recovery Act were to: (1) preserve and create jobs and promote
economic recovery; (2) assist those most impacted by the recession;
(3) provide investments needed to increase economic efficiency by spurring
technological advances in science and health; (4) invest in transportation,
environmental protection, and other infrastructure that will provide long
term economic benefits; and (5) stabilize state and local government
budgets in order to minimize and avoid reductions in essential services and
counterproductive state and local tax increases.

      The Recovery Act provided approximately $4 billion to the Department
of Justice in grant funding to be used to enhance state, local, and tribal law
enforcement efforts. Of these funds, $1 billion was provided to the COPS
Office for grants to state, local, and tribal governments to hire or retain
police officers.


                                     - 1 - 
COPS Hiring Recovery Program

      To distribute the Recovery Act money, COPS established the COPS
Hiring Recovery Program (CHRP), a grant program for the hiring, rehiring,
and retention of career law enforcement officers. COPS created CHRP to
provide 100 percent of the funding for approved entry-level salaries and
benefits (for 3 years) for newly-hired, full-time sworn officer positions, for
rehired officers who had been laid off, or for officers who were scheduled to
be laid off on a future date. COPS received 7,272 applications requesting
funding for approximately 39,000 officer positions. On July 28, 2009, COPS
announced its selection of 1,046 law enforcement agencies as recipients of
the $1 billion CHRP funding to hire, rehire, and retain 4,699 officers. The
grants were competitively awarded based on data submitted by each
applicant related to fiscal and economic conditions, rates of crime, and
community policing activities.

The City of Lowell, Massachusetts

     The city of Lowell is located in Middlesex County, Massachusetts, about
25 miles northwest of Boston and is the fourth largest city in Massachusetts.
The Lowell Police Department’s approved budget in fiscal year (FY) 2009 was
$21,979,987, and at the time of the grant application, the Lowell Police
Department had a budgeted sworn force strength of 246 officers.

OIG Audit Approach

      We tested compliance with what we considered to be the most
important conditions of the CHRP grant. Unless otherwise stated in our
report, we applied the 2009 CHRP Grant Owner’s Manual (Grant Owner’s
Manual) as our primary criteria during our audit. The Grant Owner’s Manual
serves as a reference to assist grantee agencies with the administrative and
financial matters associated with the grant. It was developed by COPS to
ensure that all CHRP grantees understand and meet the requirements of the
grant. We also considered applicable Office of Management and Budget
(OMB) and Code of Federal Regulations (CFR) criteria in performing our
audit. We tested Lowell’s:

      	 Application Statistics to assess the accuracy of key statistical
         data that the grantee submitted with its CHRP application.

      	 Internal control environment to determine whether the financial
         and accounting system and related internal controls were adequate



                                     - 2 - 
        to safeguard grant funds and ensure compliance with the terms and
        conditions of the grant.

     	 Personnel and fringe benefit expenditures to determine
        whether the salary and fringe benefit expenditures charged to the
        grant were allowable, supported, and accurate.

     	 Drawdowns (requests for grant funding) to determine whether
        requests for reimbursements or advances were adequately
        supported and if Lowell managed grant receipts in accordance with
        federal requirements.

     	 Budget management and control to determine whether Lowell
        adhered to the COPS-approved budgets for the expenditure of grant
        funds.

     	 Reporting to determine whether the required periodic Federal
        Financial Reports, Progress Reports, and Recovery Act Reports were
        submitted on time and accurately reflected grant activity.

     	 Compliance with award special conditions to determine
        whether Lowell complied with all of the terms and conditions
        specified in the grant award document.

     	 Program performance and accomplishments to determine
        whether Lowell achieved grant objectives, and to assess
        performance and grant accomplishments.

      Where applicable, we also test for compliance in the areas of indirect
costs and matching funds. For this CHRP grant, there were no indirect costs
approved, and matching funds were not required.




                                    - 3 - 
                                    FINDINGS AND RECOMMENDATIONS

                    We determined that Lowell generally complied with all of
                    the essential grant requirements in the areas we tested.
                    However, we found that Lowell utilized inaccurate data in
                    its grant application and overcharged the grant $19,094
                    in fringe benefit expenditures. These conditions and the
                    underlying causes are further discussed in the body of
                    the report.

Application Statistics

      To select CHRP grantees, COPS developed a methodology that scored
and ranked applicants based on data related to their fiscal and economic
conditions, rates of crime, and community policing activities. In general, the
applicants experiencing more fiscal and economic distress, exhibiting higher
crime rates, and demonstrating well-established community policing plans
received higher scores and were more likely to receive a grant. While COPS
performed some limited data validity checks, COPS relied heavily on the
accuracy of the data submitted by grant applicants. In the CHRP Application
Guide, COPS reminded applicant agencies to provide accurate agency
information as this information may be used, along with other data collected,
to determine funding eligibility. In our May 2010 report of the COPS grant
selection process, we found that the validation process COPS used to ensure
the accuracy of the crime data submitted by applicants was inadequate.1 As
a result, some agencies may have received grant funds based on inaccurate
applications. However, we were unable to determine the number of
applications that included inaccurate data.

      During this audit, we obtained documentation from Lowell to support
the information it submitted to COPS to secure the 2009 CHRP grant and we
found inaccuracies in the information submitted in the CHRP application.
Specifically, we found inaccuracies in the application data regarding locally
generated revenue for FYs 2007 and 2008, the general fund balance for FY
2009, and the local area unemployment statistics for FYs 2008 and 2009.

      According to the City of Lowell’s Chief Financial Officer (CFO), the FY
2008 locally generated revenue was incorrect because $1.1 million was
transferred to the City’s General Fund from the City’s Wastewater Enterprise
fund; these transferred funds were not included in the revenue reported in
the application. The CFO could not explain the discrepancy we identified
                                                       
             1
         U.S. Department of Justice Office of the Inspector General, A Review of the
Selection Process for the COPS Hiring Recovery Program, Audit Report 10-25, (May 2010).


                                                          - 4 - 
with regard to the FY 2007 revenue reported. With regard to the inaccurate
data for the FY 2009 General Fund balance, the CFO said that the
information reported in the application was an estimate at the time it applied
for the COPS grant. We also found that the local area unemployment
statistics for FY 2008 and 2009 were incorrect because Lowell used the
statistics for the metropolitan area in the application instead of the statistics
for the City of Lowell.

      Because the application information was used to determine the
grantee’s eligibility to receive the grant, we analyzed the effect of the
inaccurate data that Lowell submitted in its application. We determined that
the inaccurate data did not appear to have affected the suitability of the
award. As a result, we do not question the award of the CHRP grant to
Lowell.

       Because the data that grantees submit are relied upon to award
substantial grants, we believe it is vital that grantees ensure that the data
and information submitted to awarding agencies is accurate. In this case,
Lowell’s inaccurate application data did not significantly affect the suitability
of its award. Nonetheless, future inaccurate data may have a substantial
effect on award decisions. As a result, we recommend that Lowell
establishes procedures to ensure it submits accurate information for its
future grant applications.

Internal Control Environment

       We reviewed Lowell’s system of internal controls concerning its
expenditure and accounting of COPS CHRP grant funds. We noted
deficiencies regarding its fringe benefit expenditures as discussed in the next
section.

      We began this audit by reviewing Lowell’s accounting and financial
management system to assess the organization’s risk of non-compliance
with laws, regulations, guidelines, and the terms and conditions of the grant.
We also interviewed management staff from the organization, performed
payroll and fringe benefit testing, and reviewed financial and performance
reporting activities to further assess the risk.

      According to the Grant Owner’s Manual, award recipients are
responsible for establishing and maintaining an adequate system of
accounting and internal controls. An acceptable internal control system
provides cost controls to ensure optimal use of funds. Award recipients
must adequately safeguard funds and assure they are used solely for
authorized purposes.


                                      - 5 - 
      While our audit did not assess Lowell’s overall system of internal
controls, we did review the internal controls of Lowell’s accounting and
financial management system specific to the administration of grant funds
during the periods under review. We determined that Lowell had a separate
account for all payroll and fringe benefit expenditures.

Personnel and Fringe Benefit Expenditures

       We found that Lowell correctly ensured that it only charged the entry-
level salary approved in the grant budget for each grant-funded officer.
However, we found that Lowell overcharged the grant for fringe benefit
expenditures.

       According to the CHRP grant application and award documentation,
fringe benefit costs should be based on entry-level benefits for each sworn
officer. The grant award documentation approved the following fringe
benefits to be covered under this grant: (1) health insurance, (2) Medicare,
(3) retirement, and (4) holiday pay. In its grant application, Lowell
calculated the fringe benefit amounts to be charged to the grant, except
holiday pay, as percentages of an officer’s salary. However, according to the
union contract covering officer salary and benefit costs, the City of Lowell
was responsible for 75 percent of the monthly health insurance premium for
each officer. Additionally, Medicare and retirement should be calculated as
1.45 and 11 percent of the officer’s salary, and each officer was to be paid a
lump sum for 12 holidays and receive additional payment for each holiday
worked.

      To determine whether Lowell accurately calculated and allocated the
fringe benefit expenditures to the grant, we tested the first 2 years of the
grant’s charges covering January 1, 2010, to December 31, 2011. We found
that Lowell overcharged the grant $19,094. The following table shows the
charges in each category.




                                    - 6 - 
                      FRINGE BENEFIT TESTING RESULTS
                          AS OF NOVEMBER 30 , 2011
                    Charges Based      Actually
                    on Entry-Level   Charged to     Difference
                        Salary          Grant
    Health
   Insurance                 $196 624           $200029            $ 3405
    Medicare                   13 144             16302                3 158
    Retirement                 99710             112240             12 531
           Total             $309478            $328 571           $19 094
      Source: DIG AnalysIs

      Lowell also overcharged the grant in fringe benefit charges because
actual gross salaries were used in determining the amount of fringe benefits
to charge the grant instead of an amount equivalent to an entry-level
officer's salary to determine the amount to be charged to the grant.

       Lowell agreed with our findings and in December 2011 took corrective
action by reducing its reimbursement request for its grant-funded officer
activities by $19,148 and adjusting the accounting transactions. As a result
of the December 2011 adjustment, we do not report any questioned costs.
However, we recommend that Lowell enhance its procedures to ensure
future fringe benefit cost are accurately calculated and charged to the grant.

Drawdowns

     COPS requires grantees to minimize the cash maintained on hand by
requesting funds based on immediate cash disbursement needs. Even
though advances are allowed, funds must be used (disbursed) within 10
days of an electronic transfer. As of September 2011, Lowell drew down
$1,044,756 in grant funds.

      To determine if drawdowns were completed in advance or on a
reimbursement basis, we interviewed grant officials, analyzed bank
statements, and reviewed documentation in support of actual expenditures.
We determined that grant funds were requested on a reimbursement basis.
In addition, we determined that drawdowns were requested based on actual
expenditures and did not exceed grant expenditures. We found Lowell's
drawdown process to be adequate in minimizing the time lapse between the
drawdown of funds and disbursement of those funds. As a result, we found
that Lowell's drawdown procedures were adequate and complied with grant
requirements.



                                     - 7 ­
Budget Management and Control

       Criteria established in 28 C.F.R. § 30 addresses budget controls
surrounding grantee financial management systems. According to the
C.F.R., grantees are permitted to make changes to their approved budgets
to meet unanticipated program requirements. However, the movement of
funds between approved budget categories in excess of 10 percent of the
total award must be approved in advance by the awarding agency. The
following table summarizes the budget for this grant by category.

                     CHRP GRANT BUDGET AWARDED 

                             TO LOWELL 

                    Category             Budget Amount
                Personnel                         $1 447428
                Frinae Benefits                    $ 637308
                Total                            $2,084,736
               Sou rce. COPS

      During our audit, we found that Lowell 's Finance Director maintained
spreadsheets to ensure that payroll and fringe benefits stayed within the
approved budget. We also compared the total payroll and fringe benefits
charged to the grant from Lowell 's accounting system to the budget
categories established by COPS in the approved budget. While this grant
was still in progress at the time of our audit, Lowell appeared to remain
within the approved budget allowance for each category for this grant.

       In addition to remaining within the approved budget allowance, Lowell
must ensure it does not supplant local funds with grant funds. According to
the Grant Owner's Manual, grant recipients may not reduce their locally­
funded number of sworn officer positions during the 3-year CHRP grant
period as a direct result of receiving the CHRP funding to pay for additional
officers. Reductions in locally-funded sworn officer positions that occur for
reasons unrelated to the CHRP funding - such as city-wide budget cuts - do
not violate the non-supplanting requirement, but recipients must maintain
documentation demonstrating the date(s) and reason(s) for the budget cuts
to prove that they were unrelated to the receipt of CHRP grant funding in the
event of an audit, monitoring site visit, or other form of grant compliance
review.

     We reviewed Lowell's funding strength for FYs 2009 and 2010 to
determine if Lowell reduced its funding strength as a result of receiving


                                     - 8 ­
grant funds. We found that Lowell’s funding strength for officers was
reduced by 13 from 231 in FY 2009, and to 218 in FY 2010. According to
documentation we reviewed, the reduction in funding strength was a result
of economic distress, which had an adverse effect on the budgets and
staffing levels of the city’s various agencies, including the police department.
Because of the economic distress on the city, and other agencies being
asked to reduce staffing, we concluded that this reduction did not constitute
a violation of the non-supplanting requirement.

Reporting

Federal Financial Reports

      The financial aspect of CHRP grants are monitored through Federal
Financial Reports (FFR). According to the Grant Owner’s Manual, FFRs
should be submitted within 30 days of the end of the most recent quarterly
reporting period. Even for periods when there have been no program
outlays, a report to that effect must be submitted. Funds or future awards
may be withheld if reports are no submitted or are excessively late.

       Lowell officials told us they completed the FFRs using quarterly reports
from their accounting system. As of June 30, 2011, Lowell submitted eight
FFRs for this grant. We tested each FFR for accuracy and timeliness. To test
if the FFRs were accurate, we compared the expenditures reported on the
FFRs to grant accounting detail and concluded that each report was
accurate. We tested the FFRs for timeliness using the criteria noted above
and found all eight FFRs to be timely submitted. Because each of the FFRs
we tested was accurate and submitted in a timely manner, we concluded
that Lowell met COPS’s financial reporting standards.

Progress Reports

      Progress reports provide information relevant to the performance of an
award-funded program and the accomplishment of objectives as set forth in
the approved award application. According to the Grant Owner’s Manual,
these reports must be submitted quarterly, within 30 days after the end of
the reporting periods for the life of the award.

      As of September 30, 2011, Lowell was required to and submitted eight
quarterly progress reports. We sampled the last four reports to test for
timeliness and accuracy. We tested the progress reports for timeliness using
the criteria noted above and found all four progress reports to be timely
submitted. In addition, we tested each report to determine if the reports
contained the required information, included accomplishments related to


                                     - 9 - 
community policing, and accurately reported the data. We found the reports
we reviewed to be accurately based on documentation we reviewed.

Recovery Act Reports

      In addition to normal reporting requirements, grantees receiving
Recovery Act funding must submit quarterly reports which require both
financial and programmatic data. The Recovery Act requires recipients to
submit their reporting data through FederalReporting.gov, an online web
portal that will collect all reports. Recipients must enter their data no later
than 10 days after the close of each quarter beginning September 30, 2009.

       Lowell was responsible for submitting 10 Recovery Act reports from
July 1, 2009, to December 31, 2011. We tested all 10 reports to determine
if the reports were submitted timely. Of the 10 reports reviewed for
timeliness, 1 of the 10 was submitted 2 days late. However, we determined
this lateness to be immaterial.

      According to the Lowell's Program Manager, Recovery Act reports were
prepared using the financial information from the quarterly FFRs and the
programmatic information from the quarterly progress reports. Because
Lowell used the same information from the FFRs and the progress reports to
complete the Recovery Act reports, and because we found the FFRs and the
progress reports to be accurate, we concluded that the Recovery Act reports
were also accurate.

Compliance with Award Special Conditions

       Award special conditions are included in the terms and conditions for a
grant award and are provided in the accompanying award documentation.
Special conditions may also include special provisions unique to the award.
Lowell’s CHRP grant contained a special condition requiring that funding
should only be used for payment of approved full-time entry level sworn
officer salaries and fringe benefits. As discussed in the Personnel and Fringe
Benefit Expenditures section of this report, we found that Lowell over-
charged the grant for fringe benefits, but took appropriate action to address
the issue during our fieldwork.

Program Performance and Accomplishments

      In the CHRP Application Guide, COPS identified the methods for
measuring a grantee's performance in meeting CHRP grant
objectives. According to COPS, there were two objectives to the
CHRP grant: (1) to increase the capacity of law enforcement agencies to


                                    - 10 - 
implement community policing strategies that strengthen partnerships for
safer communities and enhance law enforcement's capacity to prevent,
solve, and control crime through funding additional officers, and (2) to
create and preserve law enforcement officer jobs. Quarterly progress
reports describing how CHRP funding was being used to assist the grantee in
implementing its community policing strategies and detailing hiring and
rehiring efforts were to be the data source for measuring performance.
However, COPS did not require grantees to track statistics to respond to the
performance measure questions in the progress reports. In addition, the
grantee’s community policing capacity implementation rating, identified in
the progress report, would not be used in determining grant compliance.

       Even though COPS did not require a grantee to track statistics to
support its performance, it does require a grantee to be able to demonstrate
that it is initiating or enhancing community policing in accordance with its
community policing plan. According to Lowell’s community policing
plan, Lowell did not plan to initiate new community policing strategies but
planned to enhance community policing in two areas: (1) routinely
incorporating problem-solving principles into patrol work, and
(2) systematically tailoring responses to crime and disorder problems to
address their underlying conditions.

       According to Lowell officials, it has enhanced the use of its problem-
solving principles in patrol work by incorporating more training and
promoting more community-partnerships. In addition, Lowell has been able
to assign more officers to focus on problems that the Lowell’s Crime Analysis
unit identifies.2

      Lowell contracted with a research organization to conduct a community
survey to better understand the crime problems in the community; the
performance of the police department; and the residents’ perceptions of
crime, fear of crime, and community policing. In an October 2010 report,
the research organization reported that 91 percent of the respondents felt
that police officers were visible in the community, but two-thirds of the
written comments asked for increased police visibility. However, the survey
found that respondents who rated Lowell more favorably also said they saw
enough police in the neighborhood. We concluded that Lowell was meeting
the community policing objective of the grant.


                                                       
             2
          Crime analysis is the analytical process that provides timely and significant data
relative to crime patterns. It also serves as a function to assist with the deployment of the
patrol force to curtail and contain criminal activities.



                                                          - 11 - 
Conclusion

       We found that Lowell overcharged the grant $19,094 in fringe benefits
by expending more than the allowable amount for an entry-level officer’s
fringe benefits. In addition, we found that the application data that Lowell
submitted was inaccurate, although it did not appear to have affected the
suitability of the award. When we brought these issues to Lowell’s attention,
corrective action was taken on the overcharged fringe benefits by reducing
its request for reimbursement by the amount of the overcharge. However,
we provide two recommendations for management improvement to help
prevent these issues from occurring in the future.

Recommendations

We recommend that COPS:

  1. Ensure Lowell establishes procedures to verify that it submits accurate
     information for its future grant applications.

  2. Ensure Lowell establishes procedures to verify that it accurately
     charges only allowable and allocable fringe benefit expenditures to the
     grant.




                                   - 12 - 
                                                               APPENDIX I 


           OBJECTIVES, SCOPE, AND METHODOLOGY

      The objective of our audit was to determine whether reimbursements
claimed for costs under grant 2009-RK-WX-0400 were allowable,
reasonable, and in accordance with applicable laws, regulations, guidelines,
and the terms and conditions of the grant. We also assessed grantee
program performance in meeting grant objectives and overall
accomplishments. We reviewed activities in the following areas:
(1) application statistics, (2) internal control environment, (3) personnel and
fringe benefit expenditures, (4) drawdowns, (5) budget management and
control, (6) reporting, (7) compliance with grant requirements, and
(8) program performance and accomplishments. We determined that
indirect costs and matching funds were not applicable to this grant.

      We conducted this performance audit in accordance with Generally
Accepted Government Auditing Standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provided a
reasonable basis for our findings and conclusions based on our audit
objectives.

      We audited the COPS Hiring Recovery Program grant
2009-RK-WX-0400. The grantee had requested a total of $1,044,756 in
grant funding through September 19, 2011.

       We tested compliance with what we considered to be the most
important conditions of the grant. Unless otherwise stated in our report, the
criteria we audited against are contained in the 2009 COPS Hiring Recovery
Program Grant Owner’s Manual and grant award documents.

       In conducting our audit, we performed testing in three areas: payroll
and fringe benefit charges, Progress Reports, and Recovery Act Reports. In
this effort, we employed a judgmental sampling design to obtain broad
exposure to numerous facets of the grant reviewed, such unique payroll and
fringe benefits adjustments throughout the year. This non-statistical sample
design did not allow projection of the test results to the universe from which
the samples were selected.

       In addition, we reviewed the timeliness and accuracy of Federal
Financial Reports, Progress Reports, and Recovery Act Reports; and
evaluated performance to grant objectives. However, we did not test the
reliability of Lowell’s accounting and financial management system as a
whole. We tested the reliability of the information in the accounting system


                                    - 13 -
 
during the payroll verification testing. We traced a sample of the
information in the accounting system to supporting documentation and
found the information to be reliable.




                                  - 14 - 
                                                                                        APPENDIX II 


                LOWELL POLICE DEPARTMENT RESPONSE 

                    TO THE DRAFT AUDIT REPORT


                                                                           The City of Lowell· Police Depa.rtment
                                                             JFK Civic Center· 50 Arcand Drive· Lowell, MA 01852
                                                                                    P: 978.937.3200· F: 978.970.0455
                                                                                            _.LoweIlPolice.com

                                                                                                     Kenneth Laval lee
                                                                                                       Sllperi"leJlde,,1

                                                                                                       Deborah Friedl
                                                                                                Depllty Sllperi"le"dellt
July 31, 2012
                                                                                                      Arthu r Ryan, Jr.
                                                                                                Depllty Supe ri"te"dellt
Thomas O. Puerzer
Regional Audit Manager
Office of the Inspector General
Philadelphia Regional Audit Office
701 Market Street, Suite 201
Philadelphia, Pennsylvania 19106

Dear Mr. Puerzer:

This letter is In response to the draft audit report re ceived on June 14, 2012. The Lowell Police
Department (LPD) Director of Research and Development, Budget Director and I discussed the
recommendations and will take the following step s to ensure that future grant applications and awards
are administered more accurately to the best of our ability.

Recommendations and Responses:

1.   Ensure Lowell establishes procedures to verify that it submits accurate information for its future
     grant applications.

     The Lowell Police Department (LPD) will cross reference all data submitted in grant applications to
     ensure that accurate data is submitted in future grant applications to the best of our ability.

2.   Ensure Lowell establishes procedures to verify that it accurately charges only allowable and
     allocable fringe benefit costs to the grant.

     The LPD Director of Research and Development (or Program Manager) and Budget Director will
     meet at the start of each grant to diSCUSS the allocation process for all grant expenses.




~CC:O?
Kenneth Lavallee
Superintendent of P    I




                                     The City of   La"WE LL                            Alive. Unique. Inspiring.




                                                   - 15 -
                                                                                 APPENDIX III

OFFICE OF COMMUNITY ORIENTED POLICING SERVICES
      RESPONSE TO THE DRAFT AUDIT REPORT




                u.s. DEPARTMENT OF JUSTICE
                OFFICE OF COMMUNITY ORIENTED POLICING SERVICES

                Grant Operations Directorate / Aud it Liai son Di\'ision
                                               Audit Liaison Division
                                                                                        COPS
                                                                                        COPS
                145 N Street. N.E .. Washington. DC 20530
                                     Washington,

                                           MEMORANDUM

   Via E-Mail and U.S. Mail
       E -Mail
   To:          Thomas
                Thomas O. Puerzer
                Regional Audit Manager
                Office of the In spector General
                              Inspector
                Philadelphia Region Audi Offi e

   From:         Lashon M. Hilli d
                 Management Ana st 5t
                 COPS Audit Liaison Division
                            L iaison

   Date:          August 8 , 2012

   Subject:       Response
                  Respon se to the Draft Audit Report for the Hiring Recovery Program (CHRP)
                  Grant to the Lowe ll Police Depamnent , Lowell . Massachusetts
                               Lowell         Department.         ,
                  COPS CHRP Grant 2009RKWX0400

           This memorandum is in respon se to your draft audit report . dated June 14 , 2012, for the
                                     response                   report,            14. 2012.
   Lowe ll
   Lowell Police Department (LPD) . Lo we ll . MA. For ease of review. each audit recommendation
                               (LPD). Lowell ,                   review,
   is stated in bold and underlined , followed by COPS ' response to the recommendation.

                     1.:
   Recommendation 1: Ensure Lowell establishes procedures to verifv that it submits
   accurate information for its future grant applications.

        COPS concurs that LPD should establish procedures to verify that it sub mits accurate
                                                             ve rify        submits
   information for f uture grant applications.

   P lanned
   Planned Action(s):
        After review of your report and the grantee's response , LPD wi ll cross-reference aLi data
                                                                        w ill               ll
   submitted in future grant applications to the best of their ability.
   s ubmitted

   Request

           Based on the discu ssion and planned actions . COPS reque sts closure of
                        discussion              actions.       requests
       Recommendation 1..
                       I




    ADVANCING PUBLIC SAFETY THR.OUGH COMMUNITY POLICING
                            THROUGH            POLIC I NG
                                                   •


                                               - 16 -
Thomas O. Puerzer, Regional Audit Manager, Philadelphia Regional Audit Office
        O.         Regional                             Regional
August 8, 2012
Page 2

Recommendation 2: Ensure Lowell establishes nrocedures to verify that it accurately
charges only allowable and allocable fringe benefit costs to the grant.

      CO PS concurs that the LPD shoul d have a mechani sm in place to verify that LPD
      COPS concurs                   should         mechanis
accur tel
accu rate ly charges only allowab le and all ocable fringe benefits costs to the gran t.
                          allowabl        llocab l         benefits              grant.

Planned Ac ti on (s):
        Act on(

       After review of you r report and the grantee's re sponse , LPD Research and Develop mentt
               eview your                  the        response,                    Developmen
(or Program Manage r) and Budget Director will meet at the start of eac h gran t to diisc uss th e
               Manager)                                         start each grant       s      the
all ocatio n process fo r all grant ex pend itures.
 llocation           for            expend itures.

Request

          Based on the disc uss ion and planned act ions , CO PS requests clo sure of thi s
                     e scussion                 acti ns, COP reques t losure his
      recommendation,
      recommendation , thereby closing the entire audit report.

          The COPS Omce wou ld like to thank you for the opportunity to review and respond to
                       Office would
      the draft audit report. If you have any que stion s, please contact me at (202) 5 14-6563.
                      report. you             quest ions please


cc:       Thomas O. Puerzer (co py prov ided electronica ll y)
          Thomas             (cop provided lectronicall
          Regional Audit Manager
          Omce of the In spector Ge neral
          Office the
          Chicago Regiona l Aud it Office
                  Regional Audi

          Louise H. Duhamel, Ph.D (eopy provid ed electronically)
                                        (copy provide
          Acting Assistant Director , Audit Liai son Group
                            Director,         Liaison
          Internal Rev iew and Eva luation Office
                   Review      Evaluatio n
          Just ice Ma nagement Divi si on
          Just                    ivisi

          Marcia O. Samuels-Campbe ll (copy provided electronically)
                      Samuels-Campbell        provided
          Acting Deputy Director for Operat ions
                                     Operation s
          Audi t Liai son Di visio n
          Audit Liaiso n Div ion
          Omce of Community Oriented Po licing Services (COPS)
          Office                        Policing

          Martha Vite rito (copy pro vided electron icall y)
                 Vi ter          provided ectroni
          Audit Liai son
                Liaiso n
          CO PS Aud it Liaison Di vision
                Audit           Div
Thomas O. Puerzer. Regional Audit Manager, Philadelphia Regional Audit Office
           Puerzer,               Manager.
August 8, 2012
Page 3
     J

       Na ncy J. Daniels (co py provided electronically)
       Nancy
       Administrative Assistant
       COPS Audit Liaison Division

       Audit File Copy
       OR), MA00926
            MAOO926




                                         - 18 -
                                                             APPENDIX IV



  OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND
SUMMARY OF ACTIONS NECESSARY TO CLOSE THE REPORT

       The OIG provided a draft of this audit report to the Lowell Police
Department (Lowell) and the Office of Community Oriented Policing Services
(COPS) for review and comment. Lowell’s response is included as Appendix
II of this final report, and COPS’ response is included as Appendix III. The
following provides the OIG analysis of the responses. Based on the OIG’s
analysis of the responses, this audit report is issued closed

Recommendation Number

  1. Closed. Lowell and COPS concurred with our recommendation to
     ensure Lowell establishes procedures to verify that it submits accurate
     information for its future grant applications.

     In its response, Lowell stated that it will cross reference all data
     submitted in grant applications to ensure that accurate data is
     submitted in future grant applications to the best of their ability.

     This recommendation is closed.

  2. Closed. Lowell and COPS concurred with our recommendation to
     ensure Lowell establishes procedures to verify that it accurately
     charges only allowable and allocable fringe benefit expenditure to the
     grant.

     In its response, Lowell stated that the Lowell Police Department’s
     Director of Research and Development and Budget Director will meet
     at the start of each grant to discuss the allocation process for all grant
     expenditures.

     This recommendation is closed.




                                    - 19 -
